                  U.S. DEPARTMENT OF THE INTERIOR
                  OFFICE OF INSPECTOR GENERAL


   Evaluation of the Bureau of Indian Affairs’
       Process to Approve Tribal Gaming
           Revenue Allocation Plans




                            Photos Courtesy of Microsoft Clip Art Gallery
No. 2003-I-0055                                                             June 2003
                                                                               E-EV-BIA-0071-2002

                  United States Department of the Interior

                                    Office of Inspector General
                                           Eastern Region Audits
                                              381 Elden Street
                                                 Suite 1100
                                          Herndon, Virginia 20170


                                                                                         June 11, 2003

Memorandum

To:        Aurene M. Martin
           Acting Assistant Secretary for Indian Affairs

From:      William J. Dolan, Jr.
           Regional Audit Manager, Eastern Region

Subject:   Final Report, “Evaluation of the Bureau of Indian Affairs’ Process to Approve Tribal
           Gaming Revenue Allocation Plans” (No. 2003-I-0055)

         At the request of the Secretary, we evaluated the process the Bureau of Indian Affairs (BIA)
uses to review and approve Revenue Allocation Plans (plans) submitted by Indian tribes participating
in gaming operations.

       BIA reviews the plans to ensure that tribes distribute gaming revenues responsibly. In
accordance with the Indian Gaming Regulatory Act (IGRA), tribes are expected to distribute earnings
to promote “tribal economic development, self sufficiency, and strong tribal governments” - the
purpose of IGRA. Tribes must have a plan approved by the Secretary if they intend to distribute
gaming revenues to tribal members - known as per capita payments.

        We concluded that BIA’s approval process contained weaknesses and inconsistencies, such as:

        Ø BIA did not consistently determine whether tribes reserved adequate amounts of gaming
          profits for tribal government programs and economic development projects.

        Ø BIA did not consistently document deliberations made during the review process.

        We made three recommendations to improve BIA’s approval process.

        Our evaluation also found that no one monitors tribal compliance with or systematically
enforces against non-compliance with approved plans. Although BIA reviews and approves
plans, it does not have the authority to ensure that tribes actually comply with the terms of these
plans. The National Indian Gaming Commission (NIGC), under authority given to it by IGRA,
may monitor tribal compliance with approved plans and impose civil penalties against a tribe for
making per capita payments that are not in compliance with an approved plan. The NIGC,
however, does not have a mechanism for systematic monitoring of revenue distributions to
enable identification of instances of noncompliance. Our report presents three options fo r the
Department to consider to address the lack of monitoring.

        We received responses to the draft report from the Acting Assistant Secretary for Indian
Affairs, with an attached memorandum from the Office of the Solicitor (Appendix 3) and from
the Acting Chief of Staff for the National Indian Gaming Commission (Appendix 4). Based on
the responses, we revised the report as appropriate and included additional information regarding
the role of NIGC. Based on the response from the Acting Assistant Secretary, we consider the
recommendations resolved but not implemented. (Appendix 5)

        Since the report’s recommendations are resolved, no further response to the Office of
Inspector General is required. We would, however, appreciate being informed of any action
taken to establish a process to monitor revenue allocation plans.

      The legislation, as amended, creating the Office of Inspector General requires that we
report to Congress semiannually on all reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

      If you have any questions, please do not hesitate to contact me at (703) 487-8011.


cc:   Deputy Commissioner for Indian Affairs
      Director, Office of Audits and Evaluation
      Director, Office of Indian Gaming Management
      Executive Director, National Indian Gaming Commission
               TABLE OF CONTENTS


                                                                                              Page

Background ....................................................................................1
  History of Indian Gaming ...........................................................1
  Legislation...................................................................................2
  Regulations ..................................................................................2

Review and Approval of Plans ......................................................3
   Process for Approval..................................................................3
   Weaknesses in Process...............................................................4

Recommendations ..........................................................................5

Monitoring Indian Tribal Compliance ........................................7

Summary of Responses to the Draft Report ................................7
  Acting Assistant Secretary for Indian Affairs.............................7
  National Indian Gaming Commission ........................................8
  Office of Inspector General Reply ..............................................8

Options for the Department of the Interior Regarding
   Revenue Allocation Plans ........................................................9

Objective, Scope and Methodology ............................................11

Appendices
  Appendix 1:           Indian Gaming Regulatory Act Provisions ........13
  Appendix 2:           Revenue Allocation Plans ..................................17
  Appendix 3:           BIA Response ....................................................19
  Appendix 4:           NIGC Response..................................................23
  Appendix 5:           Status of Recommendations ...............................25
This Page Intentionally Left Blank
                                      BACKGROUND

History of Indian Gaming

        Indian gaming began in the late 1970s when the Seminole tribe of Florida opened a high
stakes bingo hall. As more tribes began to engage in gaming operations, states began filing
lawsuits opposing tribal gaming. However, the Supreme Court in California v. Cabazon Band of
Mission Indians1 (in 1987) ruled that where state law did not expressly prohibit a type of
gambling, tribes could offer gaming under their own regulatory scheme.

        In October 1988, Congress passed the Indian Gaming Regulatory Act 2 (IGRA or Act).
Provisions of the Act that address Indian tribal per capita payments and selected authority of the
NIGC are presented in Appendix 1. Congress intended the Act to establish (1) a statutory basis
for operating and regulating tribal gaming, (2) Federal standards for gaming operations on Indian
lands, and (3) the National Indian Gaming Commission (NIGC) as the Federal regulatory
authority responsible for overseeing the Indian Gaming Industry.

         Gaming has become an important source of income for many tribes. Tribal gaming
revenues have steadily increased from about $7.5 billion in 1997 to $12.7 billion in 2001, as
illustrated in the following chart:


                    Total Revenue from Tribal Gaming
                          1997 - 2001 (in billions)
              $13

              $12

              $11

              $10

               $9

               $8

               $7
                           1997




                                       1998




                                                       1999




                                                                        2000




                                                                                        2001




1
    480 U.S. 202 (1987).
2
    25 U.S.C. §§ 2701-2721 (1988)


                                                1
Legislation

        IGRA requires that the Bureau of Indian Affairs (BIA), through authority delegated by
the Secretary of the Interior, review and approve Revenue Allocation Plans. These plans must
detail how tribes intend to allocate profits to fund one or more of the following:

      Ø Tribal government operations or programs.

      Ø The general welfare of the tribe and its members (which includes payments to individual
        tribe members – per capita payments).

      Ø Tribal economic development.

      Ø Charitable organizations or operations of local government agencies.

       Only tribes that use profits to make per capita payments are required to submit these
plans. Tribes that use earnings solely for government, economic, and charitable purposes are not
required to submit plans because the Act assumes that all funds are directed toward these areas,
promoting tribal government and self-sufficiency.

       IGRA 3 also authorizes the NIGC to approve all tribal gaming ordinances including those
regarding the use of gaming revenues pursuant to an approved revenue allocation plan. Since the
approved gaming ordinance identifies the authorized uses of any gaming revenue, we believe
that NIGC can impose civil penalties against tribes for making per capita payments that violate
the approved plan or making per capita payments without an approved plan.

Regulations

        In March 2000, BIA issued formal regulations 4 for tribes to follow when preparing their
allocation plans. Tribes must include:

      Ø A percentage breakdown of how profits will be distributed.

      Ø Information showing that the plan complies with IGRA.

      Ø Provisions to protect the interests of minors and other legally incompetent persons.

      Ø A mechanism to notify tribal members of tax liabilities for per capita payments.

        The regulations do not require tribes to submit information to BIA showing actual
distribut ions of gaming profits.


3
    25 U.S.C. § 2710
4
    25 CFR 290.4




                                                  2
                          REVIEW AND APPROVAL OF PLANS

Process for Approval

        The distribution plan approval process was centralized in the Office of Indian Gaming
Management (OIGM), an entity within BIA, in 1999. As shown below, Indian tribes submit
plans to OIGM through their Agency Superintendents or Regional Directors for review. OIGM
analyzes the plan, obtains a legal review by the Solicitor and forwards it to the Deputy
Commissioner of Indian Affairs for approval.




Note: According to the OIGM, some Revenue Allocation Plans are submitted by the Agency Superintendent while
other plans are submitted through the Regional Director because some Regions do not have designated staff to
conduct these reviews.

        OIGM does not systematically review every tribe’s proposed use of net gaming revenues
and, therefore, does not assess the adequacy of profit distribution. OIGM officials examine a
tribe’s financial health5 only when a tribe proposes to use 50 percent or more of its earnings for
per capita payments. OIGM has not, however, established standards for measuring a tribe’s
financial health when evaluating proposed distribution of profits. The Solicitor’s Office


5
 A review of sufficient depth is needed to determine whether the plan reserves enough revenue for funding
government operations and programs, providing for the “general welfare” of the tribe or its members, promoting
economic development, donating to charitable organizations, or helping to fund local government operations.


                                                        3
(Solicitor) reviews the plans to ensure that they comply with IGRA, but the Solicitor does not
perform an assessment of the tribe’s financial health.

         After OIGM and the Solicitor review a plan, the Deputy Commissioner signs either a
letter of approval or a written notice informing the tribe why the plan does not conform to the
regulations and how to bring the plan into compliance. The BIA will work informally with tribes
to modify plans to obtain approval.

       If a tribe decides to change how it distributes gaming profits, the tribe must submit an
amendment to the existing plan to BIA for approval. After BIA approves a plan, however, it
does not monitor tribal compliance nor does it have the authority to enforce penalties if a tribe
does not comply.

        As of December 2001, of 207 Indian tribes that conducted gaming operations,
75 submitted gaming- profit distribution plans, acknowledging that they intend to use a portion of
their earnings for per capita payments (Appendix 2 contains a list of these tribes). However, BIA
has no assurance that it knows the actual number of tribes making per capita payments. Tribes
submit plans at their own will, and BIA has no way of ensuring that all tribes making per capita
payments actually submit plans.

Weaknesses in Process

       BIA’s process for reviewing and approving Revenue Allocation Plans is not consistently
performed and contains flaws.

       Assessing a tribe’s economic health

         BIA is required, by regulation, to determine whether plans reserve adequate amounts of
money to fund tribal government programs and economic development. However, BIA does not
effectively make this determination because it does not require sufficient information about a
tribe’s financial condition. BIA only requests additional information when a tribe intends to use
over 50 percent of its earnings for per capita payments. In order to make an accurate assessment
of each tribe’s financial conditions, BIA needs to secure adequate financial information from all
tribes seeking per capita distribution plan approval.

        There were 75 plans submitted to BIA for approval through September 2002, 73 of which
were approved. Of the 73 approved plans, only 24 contained any information that might assist in
evaluating a tribe’s economic health. Of these 24, only 5 provided comparative information
about gaming profits, tribal enrollment levels, and tribal operations budgets – all of which are
essential for a reasoned evaluation of a tribe’s economic health.

       During our evaluation, however, we did find an excellent example of a plan that provided
BIA with sufficient information for approval. One Michigan tribe provided BIA with historical
and projected tribal enrollment; gaming revenues; tribal budgets; historical and projected tribal
services provided; other potential sources of tribal revenue; balances, earnings, and projected




                                                 4
earnings from capital investment reserve accounts; and capacity of gaming operations and other
related facilities. This allowed BIA to adequately evaluate the proposed distribution of earnings.

       Documenting the deliberative process

       BIA did not always document its deliberative process for reviewing and approving plans.
During the review process, BIA did not use checklists to ensure that plans met all regulatory
requirements nor did it consistently maintain records containing reasons for approving a plan.

        For example, an Idaho tribe’s file contained only the tribal ordinance and BIA’s approval
letter. Neither of these documents indicated that BIA had performed a substantive review of the
plan.

       In addition, we found that BIA did not:

               Ø Have a tracking system in place to document when a plan was received,
                 reviewed, and approved, or when a tribe was contacted about issues regarding
                 its plan.

               Ø Document standard operating procedures.

                                 RECOMMENDATIONS

       We recommend that the Assistant Secretary for Indian Affairs improve its approval
process by:

               1. Amending the applicable regulations to require tribes to submit sufficient
                  financial information, modeled after the Michigan tribe, including: historical
                  and projected tribal enrollment; gaming revenues; tribal budgets; historical
                  and projected tribal services provided; other potential sources of tribal
                  revenue; balances, earnings, and projected earnings from capital investment
                  reserve accounts; and capacity of gaming operations and other related
                  facilities.

               2. Developing and publishing a standard to determine what is “adequate”
                  funding for each tribe’s government and economic development programs.

               3. Developing and producing written operating procedures for reviewing plans,
                  including forms, surnames, documentation of tribal contacts, modifications to
                  plans, and final disposition of plans.




                                                 5
This Page Intentionally Left Blank




                6
                                  MONITORING INDIAN TRIBAL
                                   COMPLIANCE WITH PLANS

        Neither the BIA nor the NIGC is monitoring Indian tribes to determine whether tribes
comply with approved revenue allocation plans or whether tribes are making per capita
distributions of gaming revenues without an approved plan. IGRA does not specifically provide
the BIA a mechanism to ensure that tribes making per capita payme nts actually submit plans or
make payments in compliance with approved plans. While IGRA does provide the NIGC
authority to enforce Indian tribal compliance with the requirements of the Act, including the
revenue allocation plan requirements, NIGC does no t have a mechanism for monitoring revenue
distributions.

        An example of problems that can occur when tribes make per capita payments without
approved plans is found in a U.S. District Court case. 6 A South Dakota tribe had made per capita
payments to tribal members without a distribution plan approved by the Secretary (or BIA).
Several members who were excluded from the payments filed suit against the tribe. The court
ruled that all of the tribe’s gaming profits be held until the Secretary approved a plan, which
prevented the tribe from using gaming profits for government projects and economic
development, as well as per capita payments.

       Without a process for systematic monitoring of tribal revenue distributions, the
Secretary’s approval of the pla n serves little practical purpose. The approval process is one of
voluntary self-compliance.

                SUMMARY OF RESPONSES TO THE DRAFT REPORT
Acting Assistant Secretary for Indian Affairs Response

        The March 25, 2003, response agreed with the three recommendations. It stated that
proposed amendments to the regulations requiring tribes to submit sufficient financial
information would be developed within 60 days of publication of the final report, that a standard
to determine what is adequate funding for tribal government and economic development
programs would be formulated in conjunction with the proposed amendment, and that operating
procedures for reviewing plans would be prepared pursuant to completion of the other two
actions. In response to a suggestion in our draft report that consideration be given to amending
IGRA to give the Secretary of the Interior authority to enforce compliance with approved plans,
the response stated that such an amendment may not be necessary because “the National Indian
Gaming Commission (NIGC) already has the authority to enforce compliance with provisions of
IGRA.” and that “BIA would not have the financial resources to monitor compliance” if
provided the statutory authority to do so. Finally, the response requested that the “Related
Matters” section of the report referring to media coverage and future evaluations be deleted from
the final report.

6
    Ross v. Flandreau Santee Sioux Tribe, 809 F. Supp. 738 (1992).


                                                          7
         Attached to the response from the Acting Assistant Secretary for Indian Affairs was a
January 30, 2003, memorandum from an Attorney-Advisory in the Office of the Solicitor to the
Director, Office of Indian Gaming Management. The January 30, 2003, memorandum stated
that the Secretary “might consider seeking an amendment to IGRA in order to clarify her
authority to monitor tribal compliance or enforce against non-compliance with RAPs [Revenue
Allocation Plans]. If so, the regulations could be amended to require tribes to submit proof of
actual distribution of gaming profits.” The memorandum stated further that all “tribes who
dispense per cap payments are required to submit a RAP . . . if they don’t the regulation states
that ‘[I]f you refuse to comply, the DOJ or NIGC may enforce this requirement’.” In addition,
the memorandum clarified that the Office of the Solicitor does not perform an assessment of a
tribe’s financial health when it reviews proposed plans and amendments.

National Indian Gaming Commission’s Response

        In a March 10, 2003, response, the National Indian Gaming Commission’s Acting Chief
of Staff stated, “the report should more fully describe the potential involvement of the National
Indian Gaming Commission’s oversight of revenue allocation plans.” In that regard, the
response noted that while NIGC has civil enforcement authority against noncompliant tribes, it
does “not have a mechanism for systematic monitoring of revenue distributions.” The Acting
Chief of Staff also stated the Secretary “is in the best position to interpret an approved RAP and
make a determination as to whether or not a particular distribution complies with the plan.” The
Acting Chief of Staff added that “the Department may wish to consider instituting a reporting
requirement to facilitate monitoring” and that NIGC is willing to discuss a cooperative
arrangement for pursuing cases of misuse of gaming revenue identified by the Department.

Office of Inspector General’s Reply

        Based on the responses, we modified the report as appropriate. In particular, we added to
the report information about NIGC’s authority to monitor compliance with the Act and removed
the suggestion that consideration be given to seeking an amendment to the Act. We also
changed the report to address the technical issues raised by BIA regarding the definition of net
revenues, the approval process, the role of the Solicitor, and amendments to approved revenue
allocation plans.

       Regarding the NIGC’s comments, the scope of this assignment was the processes and
functions used by the BIA in reviewing and approving plans. We agree that IGRA provides
NIGC and DOJ the authority to enforce the requirements pertaining to revenue allocation plans.
We believe, however, that the enforcement authority is not supported by systematic mechanism
for monitoring compliance and therefore is not effectively exercised.




                                                 8
 OPTIONS FOR THE DEPARTMENT OF THE INTERIOR REGARDING
               REVENUE ALLOCATION PLANS


As concluded in this report, currently there is a requirement that tribes submit revenue allocation plans
for review and approval, without a systematic mechanism for monitoring compliance to this
requirement. Based on our review of the responses to the draft evaluation report, we submit the
following options to address this issue. In consultation with gaming tribes the Department could:

    1. Enter into an agreement with NIGC to implement an oversight process for tribal
       compliance with revenue allocation plan requirements. This would require the
       Department to identify a source of funding for the agreement because the NIGC
       Chairman advised us that NIGC currently lacks the resources to finance this process. The
       Chairman also said that it is NIGC’s policy to consult with tribes before considering an
       effort such as this.

    2. Require all gaming tribes to submit an annual independent audit report to the Secretary.
       The audit would determine whether a tribe made per capita payments and, if so, complied
       with an approved revenue allocation plan. Currently, gaming tribes that receive Federal
       financial assistance for the operation of Indian programs have two audit reporting
       requirements: (1) an annual independent audit of the financial statements of each gaming
       operation is required (25 CFR 571.13) to be submitted to NIGC and (2) an annual or
       biennial audit of a tribe’s financial statements and a schedule of its Federal assistance is
       required (Office of Management and Budget Circular A-133) to be submitted to the
       cognizant Federal audit agency. It may be possible to incorporate into the scope of one
       of these audits a review of tribal compliance with revenue allocation plan requirements.

    3. Seek relief from the requirement for the submission and approval of tribal gaming
       revenue allocation plans.

Future Evaluations

        We have tentatively identified a number of other areas in which IGRA fails to confer to
the Secretary the requisite authority to meet the Department’s responsibilities under the Act. We
are undertaking further evaluations to clearly identify the gaps in authority that prevent the
Secretary from carrying out her responsibilities most effectively and ensuring that the intent of
the statute is met. We will issue a comprehensive report with recommendations when those
evaluations are completed.




                                                    9
This Page Intentionally Left Blank




               10
                  OBJECTIVE, SCOPE, AND METHODOLOGY

        Our objective was to determine whether BIA’s approval process ensures that Revenue
Allocation Plans fulfill the purposes of the Indian Gaming Regulatory Act. This evaluation was
performed in response to a request from the Secretary. We reviewed BIA’s processes and
procedures used to review and approve plans. We also interviewed officials from the BIA’s
Office of Indian Gaming Management, the Solicitor’s Office, the National Indian Gaming
Commission, and the National Indian Gaming Association. In addition, we analyzed statistics
regarding tribal gaming and per capita distributions, and we reviewed about 6,235 pages of
documents containing BIA Revenue Allocation Plan files. We did not obtain information
directly from the tribes or review tribal accounting records to determine actual payments made.

        We conducted our evalua tion in accordance with the President’s Council on Integrity and
Efficiency’s Quality Standards for Inspections. Accordingly, we conducted tests and reviews of
records that we considered necessary under the circumstances.

         Neither the OIG nor the General Accounting Office has issued public reports within the
last five years addressing the BIA’s administration of Revenue Allocation Plans.




                                               11
This Page Intentionally Left Blank




               12
                                                                                      Appendix 1
                                                                                      Page 1 of 3


                         Indian Gaming Regulatory Act
                Provisions Addressing Tribal Per Capita Payments
                           From Net Gaming Revenues
                             (25 USC §§ 2710, 2713)


Note: Sections (a) through (b)(1) of 25 USC § 2710, were omitted by the OIG as not
applicable to the subject of this report.

Section 2710 Tribal Gaming Ordinances

(b)(2) The Cha irman [of the National Indian Gaming Commission] shall approve any tribal
ordinance or resolution concerning the conduct or regulation of class II gaming on the Indian
lands within the tribe’s jurisdiction if such ordinance or resolution provides that-

Section (A) omitted.

(B) Net revenues from any tribal gaming are not to be used for purposes other than:
    (i) To fund tribal government operations or programs;
    (ii) To provide for the general welfare of the Indian tribe and its members;
    (iii) To promote tribal economic development;
    (iv) To donate to charitable organizations; or
    (v) To help fund operations of local government agencies;

Sections (C) through (F)(ii)(III) omitted

(3) Net revenues from any class II gaming activities conducted or licensed by any Indian tribe
    may be used to make per capita payments to members of the Indian tribe only if:
    (A) The Indian tribe has prepared a plan to allocate revenues to uses authorized by
        paragraph (2)(B);
    (B) The plan is approved by the Secretary as adequate, particularly with respect to uses
        described in clause (i) or (iii) of paragraph (2)(B);
    (C) The interests of minors and other legally incompetent persons who are entitled to receive
        any of the per capita payments are protected and preserved and the per capita payments
        are disbursed to the parents or legal guardian of such minors or legal incompetents in
        such amounts as may be necessary for the health, education, or welfare, of the minor or
        other legally incompetent person under a plan approved by the Secretary and the
        governing body of the Indian tribe; and
    (D) The per capita payments are subject to Federal taxation and tribes notify members of
        such tax liability when payments are made.




                                               13
                                                                                         Appendix 1
                                                                                         Page 2 of 3



Sections (4) (A) through (c) omitted.

(d)(1) Class III gaming activities shall be lawful on Indian lands only if such activities are-
       (A) authorized by ordinance or resolution that –

                         (i)     is adopted by the governing body of the Indian tribe having
                                 jurisdiction over such lands,
                         (ii)    meets the requirements of subsection (b) of this section, and
                         (iii)   is approved by the Chairman

Section 2713 – Civil Penalties

  (a) Authority; amount; appeal; written complaint

           (1) Subject to such regulations as may be prescribed by the Commission, the
               Chairman shall have authority to levy and collect appropriate civil fines, not to
               exceed $25,000 per violation, against the tribal operator of an Indian game or a
               management contractor engaged in gaming for any violation of any provision of
               this chapter, any regulation prescribed by the Commission pursuant to this
               chapter, or tribal regulations, ordinances, or resolutions approved under section
               2710 or 2712 of this title.

           (2) The Commission shall, by regulation, provide an opportunity for an appeal and
               hearing before the Commission on fines levied and collected by the Chairman.

           (3) Wheneve r the Commission has reason to believe that the tribal operator of an
               Indian game or a management contractor is engaged in activities regulated by this
               chapter, by regulations prescribed under this chapter, or by tribal regulations,
               ordinances, or resolutions, approved under section 2710 or 2712 of this title, that
               may result in the imposition of a fine under subsection (a)(1) of this section, the
               permanent closure of such game, or the modification or termination of any
               management contract, the Commission shall provide such tribal operator or
               management contractor with a written complaint stating the acts or omissions
               which form the basis for such belief and the action or choice of action being
               considered by the Commission. The allegation shall be set forth in common and
               concise language and must specify the statutory or regulatory provisions alleged
               to have been violated, but may not consist merely of allegations stated in statutory
               or regulatory language.

  (b) Temporary closure; hearing

          (1) The Chairman shall have power to order temporary closure of an Indian game for
              substantial violation of the provisions of this chapter, of regulations prescribed by




                                                 14
                                                                                       Appendix 1
                                                                                       Page 3 of 3
           the Commission pursuant to this chapter, or of tribal regulations, ordinances, or
           resolutions approved under section 2710 or 2712 of this title.

       (2) Not later than thirty days after the issuance by the Chairman of an order of
           temporary closure, the Indian tribe or management contractor involved shall have a
           right to a hearing before the Commission to determine whether such order should
           be made permanent or dissolved. Not later than sixty days following such hearing,
           the Commission shall, by a vote of not less than two of its members, decide
           whether to order a permanent closure of the gaming operation.

(c) Appeal from final decision
     A decision of the Commission to give final approval of a fine levied by the Chairman or
     to order a permanent closure pursuant to this section shall be appealable to the
     appropriate Federal district court pursuant to chapter 7 of title 5.

(d) Regulatory authority under tribal law
     Nothing in this chapter precludes an Indian tribe from exercising regulatory authority
     provided under tribal law over a gaming establishment within the Indian tribe's
     jurisdiction if such regulation is not inconsistent with this chapter or with any rules or
     regulations adopted by the Commission.




                                               15
This Page Intentionally Left Blank




               16
                                                                         Appendix 2
                                                                         Page 1 of 2



                  Revenue Allocation Plans Submitted to BIA
                           As of September 2002




                                                                      Date of Last
Approved
                                                                        Action
  Plans                               Tribe

    1      Absentee Shawnee of Oklahoma                                  29-Aug-00
    2      Agua Caliente Band of Cahuilla Indians of California            11-Jan-02
    3      Alturas Rancheria of California                                  5-Mar-02
    4      Barona Band of Mission Indians of California                   28-Dec-00
    5      Berry Creek Rancheria of California                            14-Feb-01
    6      Big Sandy Rancheria of California                                24-Jul-01
    7      Big Valley Rancheria of California                             27-Sep-01
    8      Cahuilla Band of California                                   19-Mar-02
    9      Chitimacha Tribe of Louisiana                                   3-Nov-98
   10      Coeur d' Alene Tribe of Idaho                                 21-Mar-01
   11      Colorado River Indian Tribe of Arizona                          30-Jun-97
   12      Coushatta Tribe of Louisiana                                   14-Apr-95
   13      Cow Creek Band of the Umpqua Tribe of Oregon                  29-Nov-00
   14      Coyote Valley Tribe of California                              19-Sep-95
   15      Eastern Band of Cherokee Indians of North Carolina            10-Aug-01
   16      Elk Valley Rancheria of California                                9-Jan-01
   17      Flandreau Sioux Tribe of South Dakota                          29-Apr-99
   18      Fond du Lac of Minnesota                                      23-Nov-01
   19      Forest County Potawatomi of Wisconsin                         10-Aug-01
   20      Fort McDowell Mohave-Apache Indian Community of Arizona        27-Oct-98
   21      Grand Ronde Community of Oregon                                 9-Nov-99
   22      Grand Traverse Band of Michigan                                   2-Jun-00
   23      Ho Chunk Nation of Wisconsin                                    11-Jan-02
   24      Hopland Rancheria of California                                   1-Oct-97
   25      Jackson Rancheria of California                                19-Dec-95
   26      Kalispel Tribe of Washington                                    11-Jan-02
   27      Kickapoo Tribe of Kansas                                         24-Jul-01
   28      Kootenai Tribe of Idaho                                       30-May-01
   29      Lac du Flambeau Tribe of Wisconsin                              26-Jun-00
   30      Lac Vieux Desert Band of Michigan                              14-Dec-94
   31      Little Traverse Bay Bands of Michigan                           11-Jan-02
   32      Lower Sioux Indian Community of Minnesota                       18-Jan-02
   33      Menominee Tribe of Wisconsin                                     9-Dec-94
   34      Middletown Rancheria Tribe of Pomo Indians of California       18-Dec-97
   35      Mille Lacs Band of Minnesota                                   17-Dec-01
   36      Mississippi Band of Choctaw Indians of Mississippi              19-Jun-96
   37      Mohegan Tribe of Indians of Connecticut                          16-Jul-01
   38      Morongo Band of Cahuilla Mission Indians of California            4-Oct-96
   39      Muckleshoot Indian Tribe of Washington                         28-Dec-00
   40      Oneida Tribe of Wisconsin                                        25-Jul-01




                                              17
                                                                       Appendix 2
                                                                       Page 2 of 2

    41     Pala Band of California                                     10-Aug-01
    42     Pauma Band of California                                       1-Apr-02
    43     Prairie Island Indian Community of Minnesota                  7-Aug-96
    44     Puyallup                                                     10-Apr-98
    45     Quechan Tribe of Arizona                                     18-Oct-00
    46     Redding Rancheria of Pomo Indians of California              21-Oct-94
    47     Robinson Rancheria of Pomo Indians of California              30-Jun-98
    48     Rumsey Rancheria of Wintun Indians of California             19-Dec-95
    49     Sac and Fox Nation of the Mississippi of Iowa               30-May-95
    50     Sac and Fox Nation of Oklahoma                              13-May-97
    51     Saginaw Chippewa Tribe of Michigan                          28-Mar-01
    52     Salt River Pima Maricopa of Arizona                          10-Oct-01
    53     Santa Rosa Indian Community of California                   15-Aug-00
    54     Santa Ynez Band of Chumash Mission Indians of California    16-May-95
    55     Seminole Tribe of Florida                                   18-Aug-93
    56     Shakopee Mdewakanton Sioux Community of Minnesota           12-Nov-93
    57     Sherwood Valley Rancheria of California                        27-Jul-98
    58     Shoshone-Bannock Tribes of Idaho                              11-Jan-02
    59     Siletz Tribe of Oregon                                      20-Nov-01
    60     Sokaogon Chippewa Tribe of Wisconsin                        15-Aug-94
    61     Squaxin Island Tribe of Washington                           14-Dec-01
    62     St. Croix Tribe of Wisconsin                                    7-Jan-98
    63     Stockbridge Munsee Tribe of Wisconsin                       25-May-01
    64     Table Mountain Rancheria of California                       19-Dec-95
    65     Tohono O'odham Nation of Arizona                             25-Oct-00
    66     Tonto Apache Tribe of Arizona                                 9-Aug-01
    67     Tunica Biloxi Indians of Louisiana                           14-Apr-94
    68     Umatilla Tribe of Oregon                                    22-Nov-00
    69     Upper Sioux Tribe of Minnesota                                26-Jun-96
    70     Viejas Band of Mission Indians of California                 18-Dec-95
    71     Winnebago Tribe of Nebraska                                   14-Jan-94
    72     Yavapai Prescott Tribe of Arizona                            12-Sep-95
    73     Yselta del Sur                                                   2-Jul-97
Subtotal of Approved Plans: 73

Denied Plans
    1       Chicken Ranch                                             30-Nov-00
    2       San Pasqual Band                                            5-Oct-01
Subtotal of Denied Plans: 2

Total Plans: 75




                                               18
     Appendix 3
     Page 1 of 4




19
     Appendix 3
     Page 2 of 4




20
     Appendix 3
     Page 3 of 4




21
     Appendix 3
     Page 4 of 4




22
     Appendix 4
     Page 1 of 2




23
     Appendix 4
     Page 2 of 2




24
                                                                       Appendix 5
Status of Recommendations


     Recommendation       Status                 Action Required

       1 through 3    Resolved; not     No further response to the Office of
                      implemented       Inspector General is necessary. The
                                        recommendations will be referred to
                                        the Assistant Secretary for Policy,
                                        Management and Budget for
                                        tracking of implementation.




                                   25
This Page Intentionally Left Blank




            26
This Page Intentionally Left Blank




              27
This Page Intentionally Left Blank




              28
